Audit of the University of Pennsylvania
       Effort Reporting System


       National Science Foundation
       Office of Inspector General


               OIG 06-1010
               June 8, 2006
                              Table of Contents


                                                                             Page


Section I     Introduction
              Background                                                      1
              Objectives, Scope, and Methodology                              2


Section II    Findings and Recommendations
              Summary of Audit Results                                        6
              Improvements Needed in the Practices of
                 Charging Labor to Federal Awards                             8
              Recommendations                                                14

Section III   Appendixes
              Appendix A: Statistical Methodology                            21

              Appendix B: Schedule of Salaries and Wages Charged to
                          NSF Awards Without Timely Completion of
                          Effort Reports or Suitable Means of Verification   23

              Appendix C: Schedule of Salaries and Wages Charged to
                          NSF Awards Without Suitable Means of
                          Verifying Work Was Actually Performed              24

              Appendix D: Schedule of Salaries and Wages Not Approved
                         Within The 45-day Turnaround Period                 25

              Appendix E: Schedule of Questioned Salaries and Wages          26

              Appendix F: University of Pennsylvania’s Comments              27

                                     ACRONYMS

   NSF                         National Science Foundation

   OMB                         Office of Management and Budget

   UPENN                       University of Pennsylvania
 SECTION I


INTRODUCTION
Introduction

Background
        Approximately one third of the National Science Foundation (NSF) award funds
are budgeted for salary and wages, amounting to about $1.3 billion annually at
universities. Also, recently there have been several civil settlements involving
overcharges of labor costs to Federal grants, amounting to millions of dollars at several
major universities, including some funded by NSF. Because of these legal actions and
the material amounts of labor costs paid from NSF awards, the Office of Inspector
General undertook a review of NSF’s top-funded institutions to assess the adequacy of
their accounting and reporting processes for labor costs. This audit, involving the
University of Pennsylvania (UPENN), is the first in the series of our planned audits
regarding labor costs.

        UPENN, founded in 1751, is a private non-profit university located in
Philadelphia, Pennsylvania. In fiscal year 2005, UPENN had an operating budget of
$4.25 billion, which included $2.18 billion for payroll and associated fringe benefits.1
The research community within UPENN has an annual budget of more than $750 million
dollars and comprises 25 research centers and institutes, over 1,000 faculty, 1,000
postdoctoral fellows, 3,000 graduate students, and 5,000 support staff. These individuals
are from 4 undergraduate and 12 graduate schools involving a diverse number of science
disciplines within the Departments at each school. The scale and interdisciplinary
character of UPENN’s research activities make it a nationally ranked research university.
In fiscal year 2004, UPENN spent $554 million of Federal funds, which included $29
million of costs funded by NSF for research and educational related projects.
Approximately $9.4 million of these NSF award costs were for salaries and wages of
faculty, staff and students who worked on research activities in carrying out award
objectives.

        UPENN established the Research Services Office to help assure compliance with
Federal requirements such as accounting for employee’s time used to allocate salary and
wages to Federal awards. The Research Services Office reports jointly to the Senior Vice
President for Finance and Treasurer and the Vice Provost for Research, and provides
UPENN’s Departments with services to assist in administering sponsored projects. Each
Department has a chairperson who serves as the executive officer of the Department and
has general responsibility for promoting the scholarly and research activities of the
faculty. The Department Chair also has the responsibility for securing and retaining
faculty and staff members and recommending tenure and promotions for faculty and
staff. Within most Departments, the business manager is responsible for the
administrative aspects of sponsored projects and is the key individual in administrative
matters for sponsored projects. The business manager is responsible to ensure that
awards and their budgets are created accurately in the University’s financial systems,

1
    UPENN’s fiscal year begins on July 1 and ends on June 30.


                                                     1
awards are monitored on a monthly basis, charges to the award are appropriate, and that
the principal investigator confirms the accuracy of employee’s time recorded on effort
reports. Principal investigators have primary responsibility for all aspects of the
sponsored projects, specifically the approval of all charges and the research conducted
under terms and condition of the awards.

Objectives, Scope, and Methodology
    Audit Objectives. Our audit objectives were to: a) evaluate the adequacy of UPENN
internal controls for ensuring salary and wages are allowable, and b) determine the
amount of unallowable salary and wages charged to NSF awards in fiscal years 2002
through 2004.

    Scope and Methodology. The audit focused on UPENN’s payroll distribution and
effort reporting system and accordingly reviewed internal controls for ensuring that labor
costs charged to NSF:

            •    were actually incurred,

            •    benefited NSF awards,

            •    were accurately and timely recorded and charged to NSF, and

            •    were for allowable type activities as required by Federal and NSF
                 requirements.

    To address each of the these control objectives, we employed the use of statistical
software tools not only to help select random salary records for testing but also to enable
projecting our audit results to the UPENN population. From the universe of all UPENN
labor costs charged to NSF awards in fiscal years 2002 through 2004, 46 salary and wage
records greater than $100 were selected through a random number generator and tested.
Our statistical sample was valued at $371,081 and was supported by 65 effort reports
covering 45 employees.2 Our statistical methodology is more fully explained in
Appendix A.

    We compared UPENN policy and procedures to Federal and NSF requirements for
allocating labor costs to Federal awards and interviewed UPENN personnel to gain an
understanding of the controls in place to ensure salary and wages charged to NSF awards
are allowable. For each statistically selected salary record, we obtained the following
documentation to determine whether labor costs UPENN charged NSF awards met the
control objectives:



2
 Depending on the type of employee, each salary record could have up to four effort reports supporting
UPENN salary charges to sponsored projects during a fiscal year. One employee was selected twice on the
same award but was selected for different fiscal years.


                                                   2
       •   Effort reports, which are used to document 100 percent of each employee’s
           work activities for the effort reporting period,

       •   Appointment letters or other documents supporting the approved annual salary
           for faculty salaries and student stipends, or hourly rate for wages,

       •   Salary Management-Person Detail Report that listed the actual salary and
           wages charged to sponsored projects and other activities for each employee
           during a fiscal year,

       •   Various documents that business managers used as evidence to verify work
           was performed and correctly charged to Federal awards, and

       •   Award document to determine whether labor costs were allowable and
           whether the award had any terms and conditions that would affect labor
           charges to the award.

        To ensure that salary and wage costs charged to NSF awards were actually
incurred and benefited NSF awards, we corroborated the information on effort reports by
interviewing applicable employees and students as available. We inquired of them
whether the labor effort documented was actually incurred on projects and activities, the
approximate percentage of effort worked on each project and activity, and the type of
work they did on NSF projects (to ensure work was within the scope of the awards). We
also interviewed UPENN business managers to determine their processes for verifying
work performance prior to approving and signing effort reports. Additionally, we
interviewed selected principal investigators to determine the number of projects and
personnel they were responsible for and how they ascertain actual work performed on
awards and other activities.

        To determine whether labor costs were accurately recorded and charged to NSF,
we compared the amounts in appointment letters or other documentation supporting
salaries and wages paid to the amounts recorded in the Salary Management-Person Detail
Reports for each individual in our selected sample. We recalculated salary and wage
costs charged to NSF projects by using the salary shown on the appointment letter or
other supporting documentation and apportioning it by the period of time represented on
the effort report. We also reviewed labor transactions to determine whether UPENN
followed Federal, NSF, and UPENN requirements on charging labor costs to NSF
projects. We reviewed supporting documentation provided by business managers and
interviewed them to determine the extent of their efforts in verifying work shown on
effort reports.

       We determined whether UPENN officials approved and signed effort reports in a
timely manner by comparing the date effort reports were provided to Department
business managers to the date effort reports were approved and signed. Timeliness was
based on UPENN's internal policy requiring Department business managers or principal



                                            3
investigators to approve and return effort reports within 45 working days of receipt of the
forms from Research Services.

         Finally, we reviewed the two most recent single audits performed under OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations.
We reviewed these audit reports on UPENN for the fiscal years ended June 30, 2003 and
June 30, 2004, to determine whether there were any audit findings and recommendations
on effort reporting, and UPENN management’s response and actions taken to resolve
issues raised in those audit reports. In addition, we reviewed the A-133 audit for the
fiscal year ended June 30, 2003, the most recent audit at the time of our site visit, and the
applicable audit working papers to determine whether the scope of the A-133 audit
constituted an “independent evaluation” of the UPENN payroll distribution and effort
reporting system, as required by OMB Circular A-21, “Cost Principles for Educational
Institutions.” University officials stated that the A-133 audit met this requirement. We
also interviewed the A-133 auditor to gain an understanding of the scope and procedures
used in the audit for effort reporting.

        We made site visits to UPENN in December 2004 and in May 2005. Our audit
was conducted in accordance with the Comptroller General’s Government Auditing
Standards, June 2003, and accordingly included such tests of accounting records and
other auditing procedures, as we considered necessary, to fully address the audit
objectives.




                                              4
         SECTION II


FINDINGS AND RECOMMENDATIONS




            5
                         Findings and Recommendations

Summary of Audit Results
        OMB Circular A-21, “Cost Principles for Educational Institutions,” requires
salary and wages be supported by effort reports signed and approved by the employee or
an official who is in a position to know whether the work was performed. The Circular
also requires effort reports represent 100 percent of an individual’s activity and provide
an after-the-fact confirmation or determination that the effort report represents a
reasonable estimate of the actual effort expended. To ensure the reliability of the
approval process, UPENN policy requires its research Departments to return approved
effort reports within 45 working days of receipt of the forms from the Research Services
Office.

        From our statistical sample, we determined that UPENN business managers
approved and signed 23 effort reports, representing $177,894 (48 percent) of $371,081 in
salary and wage costs charged to NSF, without after-the-fact confirmation or
determination that time reflected on the effort reports represented reasonable estimates of
the actual effort expended. UPENN principal investigators and business managers also
did not approve 24 effort reports within the 45-day turnaround period specified by
UPENN policy, representing $109,163 (29 percent) in labor costs charged to NSF. (See
Appendix B for specific sample numbers and associated award numbers and salary
amounts).

        As a result, without timely or suitable means to verify effort reports, UPENN was
unable to ensure that a substantial amount of salary and wage costs charged to NSF
awards reasonably reflected actual effort worked on NSF projects. Specifically, based on
our statistical sampling results, we are 95 percent confident UPENN could not
demonstrate that at least $9.2 million, or 37 percent of the $24.9 million of labor costs
charged to NSF in fiscal years 2002 through 2004, actually benefited NSF awards as
opposed to other Federal or university activities. Further, the systemic nature of this
control weakness raises concerns about the reasonableness and allowability of the labor
effort charges on UPENN’s other $525 million of Federal awards.

        This systematic control weakness occurred because UPENN did not have specific
procedures to help business managers understand the types of documents that were
necessary to support the effort reports. Also, Department Chairs were not held
accountable for ensuring effort reports were completed within the 45-day turnaround
period. UPENN also did not conduct an independent evaluation of its payroll distribution
system. OMB Circular A-21 requires such an evaluation, which should have disclosed
the deficiencies in the business managers’ methods for verifying and approving the
reasonableness of actual labor costs charged to NSF awards.

       A draft audit report was issued to UPENN with recommendations addressing the
above findings. We requested UPENN to comment on the findings and


                                             6
recommendations in the draft report. In general, the University agreed with the findings
and believed it has already taken corrective action to resolve the recommendations or
their new procedures inherently meet the intent of the recommendations. After reviewing
UPENN’s response, we have reaffirmed each of our recommendations. NSF should work
with the cognizant audit agency and/or UPENN to ensure UPENN develops an
acceptable corrective action plan to resolve each audit recommendation. We have
summarized UPENN’s comments and provided our response after each recommendation
in the report. We also included UPENN’s response to our draft report in its entirety as
Appendix F.




                                           7
Improvements Needed in the Practices of Charging Labor to Federal
Awards
        OMB Requirements. Federal grant requirements provide that labor costs
charged to NSF awards must reasonably reflect the actual labor effort contributed by the
employee to meet the objectives of the award. While a university can initially charge
NSF awards based on estimates of labor effort that are expected to be contributed,
university officials are required to subsequently confirm that the labor effort costs
charged to an award reasonably represent the actual labor effort. As such, the university
officials providing this after-the-fact confirmation must have a “suitable means of
verification” that the estimated labor effort reflected on the effort report reasonably
reflects the actual amount of time the employee worked on the NSF award.

         In addition, although Federal and NSF requirements do not specify when an effort
report should be completed, university officials should provide the after-the-fact
confirmation as close to the end of the effort reporting period as possible to ensure its
reliability and avoid concerns with memory recall. Officials often rely on their memory
when signing and approving effort reports since they are not required to track and
maintain records of an employee’s work activities.

         To ensure timely review and approval, UPENN has established a 45-working day
turnaround requirement. The Research Services Office prepares and sends effort reports
to business managers within the Departments reflecting the predetermined estimates of
the time the principal investigator and staff spent on each Federal award during that
period.3 The principal investigators and business managers together have a total of 45
working days to review and approve these effort reports before sending them to the
Research Services Office who reviews them for completeness and also tracks receipt of
all of the effort reports. If the actual time spent on research is significantly less than the
predetermined estimates of the time, the business managers are responsible for the
accounting entry to correctly charge the awards.

        UPENN chose 45 working days because it provided a reasonable amount of time
for principal investigators and business managers to be able to complete and return effort
reports to the Research Services Office. But such a limitation on the turnaround also
helps UPENN ensure a more reliable review and certification process. Even to comply
with the 45-day turnaround, UPENN officials must remember as far back as six and in
some cases nine months,4 to confirm all activities an employee worked on during the
period covered by the effort report. Furthermore, principal investigators are not required
to keep records of the amount and types of activity worked on and are generally relying

3
  Effort reports are prepared tri-annually (for the fall, spring and summer semesters) or quarterly (for hourly
paid employees) depending on a student’s or employee's appointment and how his/her salary is charged to
Federal awards.
4
  The amount of time certifying official would have to recall activities for some employees could be nine
months. Effort report period can cover up to six months of time. Additionally, to prepare and distribute
effort reports to the departments take on average one-month, and UPENN officials have close to two-
months time to certify and return the effort reports.


                                                      8
on their memory when approving effort reports for themselves and the individuals that
work for them. Principal investigators may also have multiple awards and staff that they
are responsible for during the effort-reporting period, which increases the risk that
principal investigators’ memory of the amount and type of activities performed will be
less reliable as time increases past the 45-day period. For example, one principal
investigator informed us that he had 5 awards involving 15 employees and students
working for him. Thus, limiting the review and approval of effort reports to the shortest
amount of time possible ensures amore reliable labor charges to Federal awards.

        Business Managers Had Insufficient Suitable Means of Verification. Our
review found that UPENN business managers did not always comply with these control
requirements for effort reporting. For 23 of the 65 effort reports tested, representing
$177,894 (48 percent) of salary and wages charged to NSF, UPENN business managers
approved effort reports without suitable means of verification that the work was actually
performed as shown on effort reports. They either approved without obtaining
affirmative confirmation from the principal investigator of the reasonableness of the
effort report labor estimates (11 instances), relied on incomplete information
(6 instances), or could not provide any documentation evidencing how they verified the
time estimates reflected on the effort report (6 instances). (See Appendix C for specific
sample numbers and associated award numbers and salary amounts.)

Improper Reliance on Monthly Financial Reports

        Business managers approved 11 effort reports, representing $131,761 of labor
costs charged to NSF, without obtaining affirmative after-the-fact confirmations from
principal investigators that the labor costs listed on the monthly financial reports
represented a reasonable estimate of actual effort spent by an individual working on a
research project. Monthly financial reports are distributed to principal investigators and
include a list of all individuals and their associated labor costs for a single research
project. Business managers assumed the principal investigators would notify them if
labor costs on the monthly financial reports were not correct. However, in not requiring
an affirmative response, business managers did not know whether these principal
investigators reviewed the monthly financial reports and agreed with the labor costs
charged to the research project. Also, monthly financial reports do not account for 100
percent of an employee's labor effort and therefore do not enable the approving officials
to determine whether the labor costs were properly allocated among the employee’s
various activities. The monthly financial report does not provide for this breakout of
labor effort.

Incomplete Information

        In another six instances, the business managers approved labor effort reports,
representing $27,083 in labor costs charged to NSF awards, based on weekly timesheets
that reported only total hours worked rather than a breakdown of specific projects or
activities that the employees worked on during the week. Lacking identification of the
projects and activities the employees worked on, the business managers who approved



                                             9
the effort reports were not in a position to evaluate the accuracy of the labor effort
allocations to the various Federal awards, including NSF awards.

Lack of Any Documentation to Support Labor Effort Allocations.

        Business managers approved and signed six effort reports, representing $19,050
in labor costs charged to NSF awards, without any documentation to support actual labor
costs incurred on the projects. For four, the business managers did not provide any
documentation to support that they conducted an after-the-fact confirmation or
determination that work was performed as shown on the effort reports. For the other two,
the business manager was able to provide only the technical research report from UPENN
officials to support the salary and wage amounts charged to the NSF awards.

        UPENN participates in NSF programs Research Experience for Teachers and
Research Experience for Undergraduates. Both programs require participants to provide
a report on the technical accomplishments at the end of the project, which a business
manager used to support and verify the amount of effort the individuals worked while in
the program. While the technical reports are important for monitoring programmatic
performance of an award, they are of limited use in determining the amount of actual
time an employee worked on the award. For example, it is possible for a participant to
miss time in the research laboratory and still be able to write a technical report of the
research accomplishments.

        Timeliness of Effort Reports. Our review also found that UPENN did not
always timely approve effort reports and/or maintain documentation to verify when the
reports were approved. UPENN’s independent auditors also noted this timeliness
problem in their fiscal years 2003 and 2004 audit reports.

        In 24 of the 65 effort reports we tested, representing $109,163 (29 percent) of
labor costs charged to NSF awards, principal investigators and business managers did not
approve the effort report within the 45-day turnaround period specified by UPENN
policy, and in two instances took four to six months to approve the report. For another
five effort reports, representing $3,102 (1 percent) of labor costs charged to the NSF
awards, we could not determine whether the reports were completed on time because they
were not dated. (See Appendix D for the number of days late for each sample number
and associated award number and salary amount).




                                             10
       The chart below summarizes how much time beyond the UPENN turnaround time
of 45 days that officials took to approve the 24 late effort reports.

                                        Lateness of Effort Reports
                                                  Number of           Salary
                                   Days Late     Effort Reports       Costs
                                   1 – 30              14              $79,617
                                   31 – 60              7               20,302
                                   61 – 120             1                1,971
                                   121 – 180            2                7,273
                                        Total          24              109,163
                                   No Date              5                3,102
                                        Total          29             $112,265

        UPENN’s two most recent A-133 audit reports for fiscal years 2003 and 2004
also cited the same timeliness issue regarding the university’s effort reports. In
particular, these reports noted that timely review and approval of effort reports are
important control procedures that help ensure labor costs are appropriately charged to
Federally sponsored projects. However, both A-133 audits found that 8 percent of the
effort reports tested for timeliness was not completed within the 45-day turnaround
period specified by UPENN policy.

        UPENN officials responded that they have communicated constantly with
Departments reminding them to return their effort reports, provided extensive training to
business managers and faculty, and provided Departments with status reports listing late
effort reports. UPENN officials from the Research Services Office stated that an
employee from their office is assigned the responsibility to monitor the return of effort
reports from the Departments to help ensure they are returned in a timely manner.
Because the problem persists, UPENN is currently implementing an electronic based
effort reporting system that will establish clear tracking of effort reports and require
business managers and principal investigators to review and approve effort reports within
45 days. However, even with an electronic based effort reporting system, principal
investigators may still not complete or confirm the information on effort reports in a
timely manner until Department Chairs hold them accountable. Business managers and
officials from the Research Services Office do not have the authority that Department
Chairs have to direct principal investigators to complete or confirm the information on
effort reports in a timely manner.

        Potential Excess Labor Charges. Without timely or suitable means to verify
effort reports, UPENN was unable to ensure that large amounts of salary and wage costs
charged to NSF awards reasonably reflected actual hours worked on NSF projects.
Specifically, based on our statistical analysis,5 we are 95 percent confident UPENN could

5
  For our statistical analysis, we classified labor costs as unverifiable if there was no suitable means of
verification that the work was actually performed, the effort report was completed after a 45-day
turnaround period, or there was no date on the effort reports. A total of $224,663 of the $371,081 of
audited labor costs or 60.5 percent of the labor costs was unverifiable. (See Appendix A for a complete
description of our statistical methodology.)


                                                     11
not demonstrate that at least $9.2 million or 37 percent of the $24.9 million of labor costs
charged to NSF in fiscal years 2002 through 2004, benefited NSF awards as opposed to
other Federal or university activities. Further, the systematic nature of this control
weakness raises concerns about the reasonableness and allowability of the labor effort
charges on UPENN's other $525 million of Federal awards.

       Factors Contributing to Effort Reporting Weaknesses. We identified two
major factors that contributed to UPENN’s effort reporting control weaknesses:

        Specific Procedures and Accountability Needed. While UPENN had policies
requiring business managers to obtain after-the-fact confirmations from principal
investigators that work was performed, it did not have specific procedures explaining the
types of documentation that was acceptable as support for information reflected on the
effort reports. For example, an e-mail from principal investigators to the business
managers confirming the accuracy of information on the effort reports or timesheets
regarding the specific projects or activities that the employee(s) worked on during the
reporting period.

         Also, UPENN did not hold Department Chairs accountable for effort reports that
were not returned within the 45-day turnaround period. Department Chairs would have
more leverage than business managers in ensuring principal investigators complete or
confirm the information on effort reports in a timely manner. The Department Chair has
the responsibility for securing and retaining staff and faculty members and recommends
tenure and promotions for faculty and staff. Business managers provide support and
assist the principal investigator on administrative matters but have no direct authority
over principal investigators. Whereas, Department Chairs, having a direct line of
authority over principal investigators, thus have more influence on getting principal
investigators to respond positively to the requirement to timely complete effort reports.
Furthermore, Department Chairs and principal investigators would likely be more
accountable for effort reports if this responsibility were included as a rating factor on
their annual job evaluation.

    Independent Internal Evaluations Not Performed. UPENN did not conduct
independent evaluations of its payroll distribution system. Such evaluations, required by
Federal grant requirements, would have likely disclosed the deficiencies in the business
managers’ methods for verifying and approving the reasonableness of actual labor costs
charged to NSF awards. While UPENN officials were aware of this evaluation
requirement, they believed that its A-133 auditor included this evaluation as part of its
annual audit. However, the A-133 auditor focused its work on reviewing the timeliness
of the certifications of the effort reports along with assessing the accuracy of the labor
cost calculations and the allowable nature of the salary charges rather than on whether
business managers had a suitable means for knowing whether the work was performed in
the amounts reported.




                                             12
     UPENN's new electronic effort reporting system should reduce the complicated
logistical and coordination activities necessary when distributing over 7,500 paper effort
reports every six months and help UPENN provide more timely effort reports. Also, by
providing for electronic approval of effort reports, UPENN should be able to obtain
appropriately completed effort reports from principal investigators and business
managers, particularly if Department Chairs are held accountable for completing of the
effort reports in a timely manner.

    Other Matters. We questioned $27,121 of salary and wages along with associated
fringe benefits and indirect costs charged to NSF during fiscal years 2002 through 2004
because UPENN overcharged NSF awards (See Appendix E for additional details on the
questioned costs and the associated NSF award). Because most of the questioned costs
were associated with one effort report and the total questioned costs were only 3.7
percent of the labor costs included in our sample,6 we were unable to statistically project,
with an acceptable degree of accuracy, the amount of questioned costs charged to all NSF
awards in the three-year audit period. The questioned costs involved three individuals
on separate NSF awards as follows:

    •   Although a business manager correctly revised an effort report to note that the
        amount of effort on a NSF award was reduced from the estimated amount of
        100 percent to the actual amount of 50 percent, the business manager did not
        make the correction resulting in a $23,652 overcharge. Based on the revised
        effort report, UPENN should have transferred the labor costs, associated fringe
        benefits, and indirect costs to a non-NSF project.7

    •   On another NSF award, a student informed us that 20 percent of her effort was
        spent as a training assistant, however UPENN charged 100 percent of her effort to
        the NSF award. As result of her incorrect effort report, UPENN overcharged
        $3,328 on the NSF award.

    •   On a third NSF award, UPENN inadvertently charged NSF twice for $141 of
        labor costs along with associated fringe benefits and indirect costs.




6
  The 3.7 percent is based on $13,731 of questioned labor costs, whereas, the remaining questioned amount
of $13,390 was for fringe benefits and indirect costs.
7
  Based on our discussions regarding the questioned labor costs, UPENN revised its policy on effort
reporting in January 2005, adding a requirement that the Research Services Office review all modified
effort reports and ensure the corresponding cost transfers are recorded in the project ledgers. This new
policy will help ensure that correct salary amounts are charged to NSF awards.


                                                   13
Recommendations
We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant
audit agency, as needed, to implement the following recommendations:

1. Work with the University of Pennsylvania to establish an internal control structure
   that ensures the existence of an effective review and approval process for charging
   labor costs to NSF awards. At a minimum, the University of Pennsylvania should
   develop and implement policies and procedures to:

   a. conduct an independent internal evaluation of the University’s payroll distribution
      system for compliance with Federal, NSF, and UPENN requirements.

UPENN Comments

        UPENN believes that it met the requirement to conduct an independent internal
evaluation of it payroll distribution system through both its’ annual A-133 audits and
internal audits of individual sponsored projects. Furthermore, UPENN provided for an
independent internal evaluation by examining its practices and policies in conjunction
with implementing its new electronic Effort Reporting System, which resulted in the new
and revised policies related to effort reporting.

OIG Response

        We respectfully disagree with UPENN’s assessment that its annual A-133 audits
and internal audits of individual sponsored projects meet the Federal grant requirement
because both types of audits did not provide for a systemic review of the payroll
distribution system. While UPENN’s A-133 audit focused on the timeliness of effort
report certifications along with assessing the accuracy of the labor cost calculations, the
A-133 audit did not include a systemic review of the effort reporting system.
Specifically, the audit did not address the Federal requirement that business managers
have a suitable means for knowing whether the work was performed before they certify
to the amounts reported. Furthermore, the past two A-133 audits found problems with
timeliness of certifications but the auditors never identified the reason(s) why UPENN’s
effort certifications were late. We would expect a systemic review to identify the
reason(s) for the deficiency and make recommendations to correct the timeliness problem
from occurring again. Similarly, UPENN’s internal audits were not systemic reviews
because the reviews focused on individual projects and did not identify the reason(s) for
the problems. Thus, the internal reviews did not develop recommendations to correct
systemic deficiencies for effort reporting. For example, a UPENN internal audit of an
individual sponsored project determined there were four missing effort reports. The
internal auditors did not make a recommendation in the report, however, the report stated
that the missing effort reports were provided. However, it was not within the scope of the




                                            14
audit to determine whether missing effort reports was a systemic issue caused by weak
internal controls over effort reporting.

        While we commend the Research Services Office for conducting an evaluation
that lead to the development of the new electronic Effort Reporting System along with
revised policies, their evaluation can not be considered "independent" as the Research
Services Office is responsible for establishing and implementing the policies and
procedures for the system. An independent evaluation is particularly warranted to
determine whether the new and revised policies and procedures developed by the
Research Services Office are working as intended. Therefore, we reaffirm our
recommendation.

   b. ensure business managers obtain from principal investigators written after-the-fact
      verification the work represented on effort reports was actually performed prior to
      approving and signing the reports.

UPENN Comments

       UPENN did not specifically address this recommendation.

OIG Response

      NSF should request UPENN provide a corrective action to address this
recommendation.

   c. revise the effort reporting policy and procedures to state business managers must
      obtain written after-the-fact verification from principal investigators before
      approving and signing effort reports.

UPENN Comments

       UPENN stated that its Sponsored Projects Policy No. 2134, effective October
2004, requires written after-the-fact verification of effort reports.

OIG Response

        Although UPENN’s Sponsored Projects Policy No. 2134 requires and describes
documentation needed to support approval of financial transactions including any salary
allocations, this policy did not clearly state whether it applies to effort reporting. UPENN
also issued Sponsored Projects Policy No. 2114 on effort reporting that is unclear on
what documentation a business manager must obtain when signing effort reports and does
not refer to Policy No. 2134. Therefore, UPENN’s effort reporting policies should be
clear that business managers when signing effort reports are required to follow Policy
No. 2134. Furthermore, we interviewed selected business managers after the effective
date of the Sponsored Projects Policy No. 2134 and they were not aware that this policy
applied to effort reporting. Without clear guidance, business managers may continue to



                                            15
sign effort reports without obtaining the required documentation from principal
investigators.

   d. require that hourly employees’ weekly timesheets itemize all specific projects or
      activities worked on during the covered time period and that the workload
      breakdowns support the effort allocations to each Federal award.

UPENN Comments

       UPENN stated that as of October 2005, they implemented a new standard
timesheet that associates hours worked to specific projects.

OIG Response

       UPENN’s new timesheet should meet the intent of the recommendation.

   e. implement the University’s electronic-based effort reporting review and
      certification system as quickly as possible.

UPENN Comments

       UPENN stated that it has implemented its electronic Effort Reporting System and
created and revised related policies.

OIG Response

       UPENN actions should meet the intent of the recommendation.

   f. hold Department Chairs accountable for the completion of effort reports within the
      45-day turnaround period as required by University of Pennsylvania policy.

UPENN Comments

       UPENN officials stated its new electronic Effort Reporting System provides for
monitoring, timeliness, and accountability for effort reports at the departmental and
school levels and they will decide at a later time on whether to hold Department Chairs
accountable for the timely completion of effort reports.

OIG Response

        UPENN did not explain how the new procedures for the electronic system would
ensure effort reports are monitored, completed in a timely manner, and establish
accountability at the department level. UPENN also did not state who is being held
accountable for the timely completion of effort reports and the date they will determine
whether to hold Department Chairs accountable for the timely completion of effort
reports. Without UPENN providing more details on how the new procedures address



                                           16
timeliness and accountability, we can’t determine whether its new electronic system will
resolve the timeliness issue.

2. Recover the questioned salary and wage costs along with the associated fringe benefits
   and indirect costs, totaling $27,121.

UPENN Comments

        UPENN officials disagreed with $3,328 of questioned costs related to a graduate
student providing teaching assistance because this activity is an uncompensated
obligation of students in the PhD program in the School of Engineering and Applied
Science. The student in question spent 100 percent of her compensated effort working on
the NSF award.

OIG Response

        The student’s graduate program acceptance letter did not include an obligation to
provide uncompensated teaching assistance. Furthermore, UPENN did not provide
evidence of a policy requiring all students in the PhD program in the School of
Engineering and Applied Science to provide uncompensated teaching assistance.
Therefore, we continue to believe the student’s teaching assistance was a compensated
activity paid with NSF grant funds and should be returned to NSF unless UPENN can
provide the School of Engineering and Applied Science policy in effect for the Spring
2004 semester that requires all students in the PhD program to provide teaching
assistance without pay as part of the program.

Other UPENN Comments

        During fiscal years 2002 through 2004, business managers could use either
written or oral means of verification because during those years neither Federal grant
requirements nor UPENN policy defined what constitutes a suitable means of
verification. Therefore, the OIG in assessing the extent of the unverified labor amount,
should not judge historical effort reports in context of the UPENN’s new policy requiring
written verification.

OIG Response

        Federal grant requirements state that universities must provide adequate
documentation to support costs charged to sponsored agreements. Based on this
requirement, business managers have always been required to document what they used
as a suitable means of verification to validate effort reports because this action is required
to support labor costs charged to sponsored agreements.




                                             17
Other UPENN Comments

        UPENN policy requiring faculty members to sign their own effort reports did not
become effective until November 2003. Therefore, business managers correctly signed
three effort reports for $60,178 because these effort reports were signed prior to the
effective date of the policy requiring faculty members to sign their own effort reports.
Thus, the report has unfairly overstated the amount of unverified labor costs.

OIG Response

        The three effort reports in question remain as part of the unverified labor costs in
the final report because business managers did not correctly sign the reports.
Specifically, business managers approved and signed these three effort reports without
using a suitable means of verification the work represented on the reports was actually
performed. Regarding UPENN policy requiring faculty members to sign their own effort
reports, the draft report had incorrectly identified that the three faculty members did not
follow this policy. The effective date of UPENN’s policy was after the date that business
managers signed the faculty members’ effort reports. Therefore, we deleted any
reference to this issue in the final report. Furthermore, we commend UPENN officials
for strengthening UPENN policy beyond Federal grant requirements by requiring
principal investigators to sign their own effort reports.

Other UPENN Comments

        Although UPENN recognized the importance of completing effort reports in a
timely manner, OMB has not established a specific timeliness standard and UPENN
disagreed that its failure to meet its own timeliness policies should be used in assessing
the extent of the unverified labor amount. UPENN officials also stated that faculty, staff
and students have supplementary documentation such as reports, lab notebooks, and
records of lab meetings to help the certifying official remember the amount of time when
certifying effort reports.

OIG Response

        We quantified labor costs supported by untimely certification of effort reports to
show the significance of the timeliness issue. Our audit noted that the timely review and
approval of effort reports are important control procedures that help ensure labor costs
are appropriately charged to Federally sponsored projects and recognized that OMB had
not established a specific timeliness standard. Furthermore, certifying officials generally
do not use reports, lab notebooks, and records of lab meetings when validating effort
reports. Certifying officials, as stated in the report, generally rely on their memory when
validating effort reports. In addition, the supplementary documentation would still not
provide the amount of time spent working on each project or whether all work activities
are included in the supplemental documentation. Finally, we evaluated UPENN’s policy
requiring effort reports be signed and returned within 45 working days and concluded this



                                            18
was an adequate period of time to review and approve effort reports, especially with the
advent of e-mail.

Other UPENN Comments

        The business manager is not required to increase the cost of labor charged to
federal awards when the actual time spent on research is significantly more than the
predetermined estimates of the time. The actual time spent above the predetermined
estimates of time is voluntary uncommitted effort; and, OMB provided guidance that
universities do not have to account for the excess labor costs.

OIG Response

       UPENN is correct in their statement that business managers are not required to
make accounting adjustments to increase the labor costs on a grant when actual time
exceeds predetermined estimates of time. We modified the sentence in the final report to
address UPENN’s comment. However, the effort report should correctly represent the
amount of time that the staff member worked on projects or other activities.




                                           19
SECTION III


APPENDIXES




    20
                                                                            Appendix A

                                Statistical Methodology


        We used a package of statistical software tools designed by the Office of the
Inspector General, Department of Health and Human Services, to assist auditors in
selecting random samples and evaluating the audit results. The Office of the Inspector
General, Health and Human Services has used this package of statistical software tools
since the early 1970s.

       The statistical software tools included a single stage random number module to
generate random numbers, and a variable-unrestricted module to estimate audit results.
The random number software in this module was tested with thirteen certification
programs from the National Bureau of Standards to test for various aspects of
randomness. The software passed all thirteen of the tests. In addition, the appraisal
program was independently reviewed and certified.

        The audit population is UPENN salary and wage costs charged to NSF awards in
fiscal years 2002 through 2004 less salary and wages of educational fellows and any
employee or student with salary and wages charged to an award of $100 or less in a fiscal
year. The sampling frame is the collection of UPENN salary records representing an
employee or student salary and wage costs charged to a specific NSF award greater than
$100 in a fiscal year. The sampling unit is each individual salary record included in the
sampling frame.

        We obtained UPENN’s complete salary records relating to NSF awards for fiscal
years 2002 through 2004 and we deleted any salary record with salary expenditures of
$100 or less in a fiscal year and we numbered the remaining population of 3,322 salary
records that totaled $25,979,581. We used the statistical software tools single stage
random number module to generate 50 single stage random numbers with salary records
that totaled $404,781.

        During the audit, we learned that our sample included salary records of
educational fellows. Educational fellows are not required to conduct research so we
eliminated these individuals from our sample and population. As a result, the population
was revised to 3,161 salary records that totaled $24,901,568 and the sample was revised
to 46 salary records that totaled $371,081. Each salary record could have one to four
effort reports associated with them depending on type of employee or student and amount
of time employee worked in a fiscal year. We determined that the 46 salary records had
65 effort reports associated with them. We also used the variable, unrestricted appraisal
module of the statistical software tool at the 90 percent confidence level to estimate
salary and wage costs that UPENN charged NSF during fiscal years 2002 through 2004
supported by effort reports that were signed by business managers who did not use
suitable means of verification that the work was performed or signed effort reports too



                                           21
late after the effort reporting period to be considered reliable or did not date effort
reports. The appraisal module estimated that labor costs supported by effort reports
signed by a person not in a position to know whether the work was actually performed or
effort reports signed after the 45 day turnaround period or not dated is between $9.2
million and $21.7 million with a midpoint estimate of $15.4 million. Using the same
information, we could state that we are 95 percent confident that at least $9.2 million of
labor costs UPENN charged NSF in fiscal years 2002 through 2004 were supported with
effort reports signed by a person not in a position to know whether the work was actually
performed or effort reports were signed after the 45 day turnaround period or not dated.




                                            22
                                                                                      Appendix B
                      Schedule of Salaries & Wages Charged to NSF Awards
           Without Timely Completion of Effort Reports or Suitable Means of Verification
                        For the Period July 1, 2001 through June 30, 2004
                                                 No Suitable        Timeliness-     No Verification    No Date
                                     Effort      Means of           Completed       Work Performed       On
Sample           Award               Report      Verification       after 45 day    &                 T&E Reports
Number           Number              Period      Work Actually      Turnaround      Timeliness
                                                 Performed             Period
  1          CHE-9900436       Fall 2003                   $1,667              $0               $0             $0
  2          HRD-9976527       Oct – Dec 2003                   0             300                0              0
  6a         DMR-0079909       Fall 2003                        0               0              818              0
  6b         DMR-0079909       Spring 2004                      0             766                0              0
  7          DMR-0079909       Spring 2004                      0           8,400                0              0
  8a         DMR-0079909       Fall 2003                   14,991               0                0              0
  8b         DMR-0079909       Spring 2004                      0           9,993                0              0
  9          DMR-0079909       Jul – Sep 2003                   0               0            2,400              0
  10         DMR-0079909       Apr – Jun 2004                 750               0                0              0
 12a         IBN-0130804       Jul – Sep 2003                   0           1,189                0              0
 12b         IBN-0130804       Oct – Dec 2003                   0               0                0            672
 12c         IBN-0130804       Jan – Mar 2004                   0             842                0              0
 14a         EIA-0205448       Oct – Dec 2003                   0             637                0              0
 14c         EIA-0205448       Apr – Jun 2004                   0             143                0              0
  15         EIA-0205448       Jul – Sep 2003               3,732               0                0              0
 18a         IIS-0325739       Oct – Dec 2003                   0               0           12,712              0
 18b         IIS-0325739       Jan – Mar 2004               6,650               0                0              0
  19         BCS-8920230       Fall 2001                        0               0            2,583              0
 20a         BCS-8920230       Fall 2001                        0               0            5,555              0
 20b         BCS-8920230       Spring 2002                      0               0            6,944              0
  24         SES-9818662       Fall 2001                    1,000               0                0              0
  25         DMS-9971756       Spring 2002                      0               0            6,750              0
 29a         IIS-9910603       Oct – Dec 2001                   0               0                0            666
 29b         IIS-9910603       Apr – Jun 2002                   0               0                0            343
 30a         DMR-0079909       Fall 2001                        0           1,667                0              0
  31         DEB-0105021       Jul – Sep 2001                   0               0                0          1,101
  33         SES-99733739      Summer 2002                 25,778               0                0              0
  34         IIS-9900297       Fall 2002                        0               0            3,500              0
  35         MCB-9816411       Jul – Sep 2002                   0               0            1,718              0
  36         DMR-9974366       Jul – Sep 2002                   0               0            1,971              0
 37a         CCR-9820885       Fall 2002                        0               0           13,575              0
 37b         CCR-9820885       Spring 2003                      0          11,700                0              0
  38         IIS-0083240       Summer 2002                  8,900               0                0              0
  39         IIS-9982201       Jul – Sep 2002                   0               0                0            320
  40         SES-0095768       Summer 2002                 25,500               0                0              0
 42a         REC-0115676       Fall 2002                   23,100               0                0              0
  43         REC-0115676       Jul – Sep 2002                 300               0                0              0
  47         EIA-0205456       Spring 2003                      0           6,250                0              0
 48a         EIA-0205448       Fall 2002                        0               0            7,000              0
 48b         EIA-0205448       Spring 2003                      0           1,750                0              0
                               Total                    $112,368          $43,637          $65,526         $3,102
                                                        A                 B               C               D
                                                                                        Grand Total      $224,633
       Notes:

       1. Columns A & C totals $177,894 and represents the labor costs supported by Effort
          Reports with No Suitable Means of Verification work was actually performed.

       2. Columns B & C totals $109,163 and represents the labor costs supported by Effort
          Reports that were not approved within 45 day turnaround period.




                                                 23
                                                                                                    Appendix C

                      Schedule of Salaries and Wages Charged to NSF Awards
                 Without Suitable Means of Verifying Work Was Actually Performed
                         For the Period July 1, 2001 through June 30, 2004

                                          Effort
 Sample              Award                Report                                                Salary
 Number             Number                Period          Responsible Official’s Title          Costs          Totals
Monthly Financial Reports 8:
    1           CHE-9900436           Fall 2003              Business Administrator               $ 1,667
   8a           DMR-0079909           Fall 2003              Business Administrator                14,991
   24           SES-9818662           Fall 2001              Business Administrator                 1,000
   25           DMS-9971756           Spring 2002            Business Administrator                 6,750
   33           SES-9733739           Summer 2002            Business Administrator                25,778
   34           IIS-9900297           Fall 2002              Business Administrator                 3,500
  37a           CCR-9820885           Fall 2002              Business Administrator                13,575
   38           IIS-0083240           Summer 2002            Business Administrator                 8,900
   40           SES-0095768           Summer 2002            Business Manager                      25,500
  42a           REC-0115676           Fall 2002              Business Administrator                23,100
  48a           EIA-0205448           Fall 2002              Business Administrator                 7,000      $131,761

Weekly Timesheets9:
    15         EIA-0205448            Jul – Sep 2003         Manager, Admin. & Finance            $ 3,732
   18a         IIS-0325739            Oct – Dec 2003         Manager, Admin. & Finance             12,712
   18b         IIS-0325739            Jan – Mar 2004         Manager, Admin. & Finance              6,650
    35         MCB-9816411            Jul – Sep 2002         Business Administrator                 1,718
    36         DMR-9974366            Jul – Sep 2002         Business Administrator                 1,971
    43         REC-0115676            Jul – Sep 2002         Manager, Admin. & Finance                300        27,083

Final Technical Reports10:
     9           DMR-0079909          Jul – Sep 2003         Business Manager                      $2,400
    10           DMR-0079909          Apr – Jun 2004         Business Manager                         750          3,150

Other Methods:
    6a           DMR-0079909          Fall 2003              Manager, Admin. & Finance              $ 818
    19           BCS-8920230          Fall 2001              Business Administrator                  2,583
   20a           BCS-8920230          Fall 2001              Manager, Admin. & Finance               5,555
   20b           BCS-8920230          Spring 2002            Manager, Admin. & Finance               6,944       15,900
                                                                                                               $177,894




        8
          Monthly financial reports were issued to principal investigators but business managers received no
        responses back from principal investigators confirming the reports.
        9
          Hours on the weekly timesheets were not related to specific projects (awards).
        10
           Business manager did not receive after-the-fact confirmations from the principal investigator.


                                                            24
                                                                                   Appendix D
                        Schedule of Salaries and Wages Not Approved
                             Within The 45-day Turnaround Period
                       For the Period July 1, 2001 through June 30, 2004

                                                   Number of Days Late / Salary & Wage Costs
                                 Effort
Sample        Award             Report                                                    121 -      No
Number       Number             Period         1 - 30         31 - 60      61 – 120        180      Date
   2     HRD-9976527       Oct – Dec 2003      $ 300          $       0      $    0       $    0   $     0
  6a     DMR-0079909       Fall 2003                  0            818            0            0         0
  6b     DMR-0079909       Spring 2004                0            766            0            0         0
   7     DMR-0079909       Spring 2004                0         8,400             0            0         0
  8b     DMR-0079909       Spring 2004           9,993                0           0            0         0
   9     DMR-0079909       Jul – Sep 2003        2,400                0           0            0         0
 12a     IBN-0130804       Jul – Sep 2003        1,189                0           0            0         0
 12b     IBN-0130804       Oct – Dec 2003             0               0           0            0      672
 12c     IBN-0130804       Jan – Mar 2004             0            842            0            0         0
 14a     EIA-0205448       Oct – Dec 2003           637               0           0            0         0
 14c     EIA-0205448       Apr – Jun 2004             0            143            0            0         0
 18a     IIS-0325739       Oct – Dec 2003       12,712                0           0            0         0
  19     BCS-8920230       Fall 2001                  0         2,583             0            0         0
 20a     BCS-8920230       Fall 2001                  0               0           0        5,555         0
 20b     BCS-8920230       Spring 2002           6,944                0           0            0         0
  25     DMS-9971756       Spring 2002                0         6,750             0            0         0
 29a     IIS-9910603       Oct – Dec 2001             0               0           0            0      666
 29b     IIS-9910603       Apr – Jun 2002             0               0           0            0      343
 30a     DMR-0079909       Fall 2001             1,667                0           0            0         0
  31     DEB-0105021       Jul – Sep 2001             0               0           0            0    1,101
  34     IIS-9900297       Fall 2002             3,500                0           0            0         0
  35     MCB-9816411       Jul – Sep 2002             0               0           0        1,718         0
  36     DMR-9974366       Jul – Sep 2002             0               0       1,971            0         0
 37a     CCR-9820885       Fall 2002            13,575                0           0            0         0
 37b     CCR-9820885       Spring 2003          11,700                0           0            0         0
  39     IIS-9982201       Jul – Sep 2002             0               0           0            0      320
  47     EIA-0205456       Spring 2003           6,250                0           0            0         0
 48a     EIA-0205448       Fall 2002             7,000                0           0            0         0
 48b     EIA-0205448       Spring 2003           1,750                0           0            0         0
                                               $79,617        $20,302        $1,971       $7,273   $3,102




                                              25
                                                                                              Appendix E

                              Schedule of Questioned Salaries and Wages
                            For the Period July 1, 2001 through June 30, 2004

                                                                        Questioned Costs
Sample              Award            Effort Report         Salary     Fringe       Indirect
Number             Number                Period            Costs     Benefits       Costs      Total    Note
  42           REC-0115676          Spring 2003           $11,550     $3,372        $8,730    $23,652    1
  7            DMR-0079909          Spring 2004             2,100           0        1,228      3,328    2
  29           IIS-9910603          Oct – Dec 2001              81          8            52       141    3
                                               Total      $13,731     $3,380       $10,010    $27,121


  Notes to Explain Questioned Costs.
  1. Award Number REC-0115676. We questioned $23,652 because a cost transfer was
     not recorded in the general journal ledger to credit the NSF award when an effort
     report was changed from 100 percent effort to 50 percent effort. The Spring 2003
     effort report for a research professional initially showed 100 percent effort for award
     REC-0115676. The research professional’s salary during this six-month period from
     January through June 2003 was $23,100 and it was charged entirely to the NSF
     award. On October 22, 2003, the business administrator, e-mailed the research
     professional to determine the percent of effort spent on the award that semester period
     prior to signing her effort report. The research professional responded via e-mail that
     50 percent of her effort was spent on the NSF award and 50 percent was spent on a
     non-NSF award. While the business administrator modified the research
     professional’s effort report accordingly, the cost transfer was not recorded in the
     general journal ledger to credit the NSF award $11,550 in salary and wage costs and
     $12,102 in applicable fringe benefits and indirect costs. The business administrator
     stated that this omission was an oversight on her part.
  2. Award Number DMR-0079909. We questioned $3,328 because a research fellow
     who charged 100 percent of her effort to the award actually spent 20 percent of her
     effort as a training assistant that was not award related.11 The spring 2004 effort
     report for this research fellow showed 100 percent of her effort was on award DMR-
     0079909. The research fellow’s salary during this six-month period from January
     through June 2004 was $10,500 and it was charged entirely to the NSF award. While
     interviewing the research fellow, she informed us that approximately 20 percent of
     her effort was spent as a training assistant and about 80 percent of her effort was
     spent on the research award.

  3. Award Number IIS-9910603. We questioned $141 because an undergraduate
     student was paid twice for the same timesheet. A timesheet with the week ending on
     November 3, 2001 was paid on November 16, 2001 and a duplicate timesheet was
     paid on December 20, 2001. We were unable to determine when the timesheets were
     prepared because the supervisor did not date any of the timesheets that he signed and
     the student was not required to sign and date any of her timesheets.

  11
       Research fellows do not receive fringe benefits.


                                                          26
     Appendix F




27
28
29
30
31
